Audit of Data Quality for USAID/Guyana’s
Results Review and Resource Request Report

Audit Report No. 1-504-02-004-P

November 21, 2001




       Regional Inspector General / San Salvador
U.S. Agency for
 INTERNATIONAL
 DEVELOPMENT

RIG/San Salvador


November 21, 2001

MEMORANDUM

FOR:               USAID/Guyana Director, Carol R. Becker

FROM:              Regional Inspector General/San Salvador, Timothy E. Cox

SUBJECT:           Audit of Data Quality for USAID/Guyana’s Results Review and
                   Resource Request Report (Report No. 1-504-02-004-P)

This memorandum is our report on the subject audit.

The report contains no recommendations for your action.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                   1
Table of   Summary of Results                                                3
Contents

           Background                                                        3


           Audit Objective                                                   3


           Audit Findings                                                    4


                  Did USAID/Guyana assess data quality for its performance
                  indicators in accordance with USAID policies?              4


           Management Comments and Our Evaluation                            5


           Appendix I – Scope and Methodology                                6


           Appendix II – Management Comments                                 7




                                                                                 2
Summary of                 The Regional Inspector General/San Salvador conducted an audit to determine if
Results                    USAID/Guyana assessed data quality for its performance indicators in accordance
                           with USAID policies. (See page 3.)

                           USAID/Guyana, in accordance with USAID policies, assessed data quality for the
                           13 performance indicators presented in the fiscal year 2001 Results Review and
                           Resource Request (R4) report. To overcome a lack of reliable information in
                           Guyana, mission management hired consultants to design data collection
                           methodologies and to collect data. USAID/Guyana also selected simple indicators
                           that would be easy to verify. (See page 4.)

                           USAID/Guyana did not provide comments to the draft report.



Background                 According to USAID/Guyana’s April 2001 Results Review and Resource Request
                           (R4) report, the mission manages two strategic objectives (SO) and one special
                           objective (SPO).

                           •   SO: 504-001 Expanded economic opportunities for the urban and rural poor 1

                           •   SO: 504-004 More responsive and participatory governance and rule of law

                           •   SPO: 504-003 Improved HIV/AIDS attitudes, knowledge and applied
                               prevention strategies

                           USAID/Guyana reported accrued expenditures of approximately $2.7 million in
                           fiscal year 2001. The mission supported programs to strengthen the business
                           environment in order to bring about more equitable economic growth. It managed
                           efforts to make governance in Guyana more inclusive by increasing the frequency
                           and magnitude of citizen participation and to make the rule of law more
                           responsive. Finally, it worked to increase Guyana’s HIV/AIDS prevention efforts
                           and slow the rate of new infections.


Audit Objective The Regional Inspector General/San Salvador included an audit in its fiscal year
                           2001 audit plan to answer the following question:

                                  Did USAID/Guyana assess data quality for its performance indicators in
                                  accordance with USAID policies?

                           Appendix I describes the audit's scope and methodology.

1
  This strategic objective has been renamed since the April 2001 R4 report. It is now entitled “Improved climate for private
investment.”


                                                                                                                               3
Audit Findings   Did USAID/Guyana assess data quality for its performance indicators in
                 accordance with USAID policies?

                 USAID/Guyana assessed performance information to ensure that data was of
                 reasonable quality and reviewed data collection, maintenance, and processing
                 procedures.

                 USAID policies as specified in ADS 203.3.6.6 require missions to “assess data
                 quality when establishing the performance indicators and when choosing data
                 collection sources and methods.” Specifically, missions must verify and validate
                 performance information to ensure that data are of reasonable quality and review
                 data collection, maintenance, and processing procedures to ensure that they are
                 consistently applied and continue to be adequate.

                 We concluded that USAID/Guyana verified and validated performance information
                 to ensure that data was of reasonable quality and reviewed data collection,
                 maintenance, and processing procedures for the 13 performance indicators presented
                 in the fiscal year 2001 R4 report based on the following:

                 •   USAID/Guyana management determined that reliable data was not available
                     from established data sources in Guyana.

                 •   To overcome the lack of reliable data related to HIV/AIDS prevalence in
                     Guyana, the mission hired consultants to design data collection methodologies,
                     surveys, and evaluation tools that could be used to regularly gather performance
                     indicator data.

                 •   The team leaders of the economic growth and of the democracy and governance
                     strategic objectives selected simple indicators that would be easy to verify.
                     These included counting members of the local chambers of commerce and the
                     percentage of women holding public office.

                 •   We independently assessed the quality, by reviewing documentation at
                     USAID/Guyana, of the 13 performance indicators presented in the fiscal year
                     2001 R4 report and concluded that they met the quality standards outlined in the
                     Automated Directives System (ADS) 203.3.6.3. Specifically, the indicators
                     were considered to be useful for management; reflected progress at the
                     Intermediate Result or Strategic Objective level; measured change that was
                     attributable (at least in part) to USAID/Guyana efforts; covered a one-year
                     period; and were direct, objective, practical, and adequate as defined by ADS
                     203.3.6.5 a.




                                                                                                        4
Management       USAID/Guyana did not provide comments to the draft report.
Comments and
Our Evaluation




                                                                              5
                                                                                      Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador conducted this audit, in accordance
              with generally accepted government auditing standards, to determine if
              USAID/Guyana assessed data quality in accordance with USAID policies.

              We reviewed the management controls used by the mission to ensure that data
              reported for performance indicators was reliable. These controls included
              assessments of performance indicators in connection with preparing strategic
              frameworks for strategic objectives, review of indicators when preparing
              performance monitoring plans, and periodic reviews of project progress.

              We reviewed all 13 performance indicators presented in the April 2001 Results
              Review and Resource Request (R4) report to determine if assessments of data
              quality were performed when the indicators were established.

              The audit was conducted at USAID/Guyana from September 24, 2001 through
              September 28, 2001.

              Methodology

              USAID policies as specified in ADS 203.3.6.6 require missions to “assess data
              quality when establishing the performance indicators and when choosing data
              collection sources and methods.” Subsequently, “data quality must be reassessed as
              needed, but no less than once every three years.” Specific requirements for
              conducting a data quality assessment in ADS 203.3.6.6 are (1) verify and validate
              performance information to ensure that data are of reasonable quality and (2) review
              data collection, maintenance, and processing procedures to ensure that they are
              consistently applied and continue to be adequate.

              To determine that USAID/Guyana assessed data quality in accordance with the
              above criteria, we interviewed mission officials and examined e-mails,
              performance monitoring plans, strategic frameworks, study proposals, and other
              documents. We also independently assessed in accordance with ADS 203.3.6.3
              the quality of the 13 performance indicators presented in the Results Review and
              Resource Request (R4) report.

              We judged that if 90 percent or more of the indicators had assessments of data
              quality that met the ADS requirements, it would result in an unqualified (positive)
              opinion. If between 70 to 90 percent of the indicators met the standards, the
              opinion would be qualified (both positive and negative findings). If less than 70
              percent of the indicators had assessments that met the standards, it would result in
              an adverse (negative) opinion.




                                                                                                 6
                                                                          Appendix II


Management   USAID/Guyana did not provide comments to the draft report.
Comments




                                                                                    7
